1

No. 20-107

In the

Supreme Court of the United States
CEDAR POINT NURSERY AND FOWLER

PACKING CO.,
Petitioners,

v

VICTORIA HASSID, in her official capacity as Chair
of the Agricultural Labor Relations Board, et aL,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF COMPLIANCE
I, Henry M. Willis, a member of the Bar of this
Court, do hereby certi$r, as required by Supreme
Court RuIe 33.1(h), that the Brief of the United Food
and Commercial Workers Western States Council and
Teamsters Joint Council 7 as Amici Curiae tn
Support of Respondents in this proceeding contains
7 41.3 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).

2

February

tt,202L
Henry

WiIlis

Counsel of Record,
Schwartz, Steinsapir,
Dohrmann & Sommers
6300 Wilshire Blvd.
Suite 2000
Los Angeles, CA 90048
(323) 655-4700
hmw@ssdslaw.com

LLP

Counsel for amici curioe

